<html>
<title> - TO DIRECT THE PRESIDENT TO SUBMIT TO CONGRESS A REPORT ON FUGITIVES CURRENTLY RESIDING IN OTHER COUNTRIES WHOSE EXTRADITION IS SOUGHT BY THE UNITED STATES AND RELATED MATTERS; AND TO REQUIRE A REGIONAL STRATEGY TO ADDRESS THE THREAT POSED BY BOKO HARAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


     TO DIRECT THE PRESIDENT TO SUBMIT TO CONGRESS A REPORT ON FUGITIVES 
      CURRENTLY RESIDING IN OTHER COUNTRIES WHOSE EXTRADITION IS SOUGHT BY 
        THE UNITED STATES AND RELATED MATTERS; AND TO REQUIRE A REGIONAL 
           STRATEGY TO ADDRESS THE THREAT POSED BY BOKO HARAM

=======================================================================

                                 MARKUP

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                        H.R. 2189 and H.R. 3833

                               __________

                           SEPTEMBER 22, 2016

                               ____________

                           Serial No. 114-227

                               ____________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
21-607PDF                      WASHINGTON : 2016                        
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6918699b6958385829e939a86d895999bd8">[email&#160;protected]</a>  
                                
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 
                              ---------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 2189, To direct the President to submit to Congress a report 
  on fugitives currently residing in other countries whose 
  extradition is sought by the United States and related matters.     3
H.R. 3833, To require a regional strategy to address the threat 
  posed by Boko Haram............................................     8

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    22
Markup minutes...................................................    23
Markup summary...................................................    25
  
 
  TO DIRECT THE PRESIDENT TO SUBMIT TO CONGRESS A REPORT ON FUGITIVES 
 CURRENTLY RESIDING IN OTHER COUNTRIES WHOSE EXTRADITION IS SOUGHT BY 
   THE UNITED STATES AND RELATED MATTERS; AND TO REQUIRE A REGIONAL 
           STRATEGY TO ADDRESS THE THREAT POSED BY BOKO HARAM

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Good afternoon, and the subcommittee will come 
to order.
    Pursuant to notice, we are here this afternoon to mark up 
H.R. 2189, Walter Patterson and Werner Foerster Justice and 
Extradition Act, as introduced, and H.R. 3833, To require a 
regional strategy to address the threat posed by Boko Haram, as 
introduced.
    The first measure, and I will be very brief, the Walter 
Patterson and Werner Foerster Justice and Extradition Act, was 
introduced by me along with my good friend and fellow New 
Jersey Congressman Albio Sires.
    It has broad bipartisan support with an equal number of 
Democrats and Republicans as cosponsors. Roughly \1/3\ of the 
20 cosponsors are members of the House Committee on Foreign 
Affairs, including Mr. Donovan from our subcommittee, and I 
invite others to consider joining on as cosponsors.
    The second measure, which seeks a regional strategy for 
combating Boko Haram, was introduced by Congresswoman Frederica 
Wilson and has 45 cosponsors including my good friend and 
colleague, Ms. Karen Bass.
    I am very supportive of its objectives and my staff has 
worked with Ms. Wilson's staff on some of the text of that 
measure.
    Due to the fact there are a number of concurrent hearings 
and other events vying for the attention of the subcommittee 
members and having consulted with the ranking member, it is the 
intent of the Chair to expedite consideration of these measures 
by holding a vote on each measure separately followed by an 
opportunity to make comments.
    All members have copies of H.R. 2189 and H.R. 3833 before 
them. After we have concluded our expedited consideration I'd 
be glad to recognize any member including myself and the 
ranking member for any statements on the issues and I would 
also invite Congresswoman Wilson to make any statement that she 
would like to make on her bill as well.
    All members are given leave to insert written remarks into 
the record should they choose to do so. Seeing that we do have 
the requisite number of members present, without objection the 
following will be considered read: H.R. 2189, the Walter 
Patterson and Werner Foerster Justice and Extradition Act, as 
introduced, and H.R. 3833, to require a regional strategy to 
address the threat posed by Boko Haram, as introduced.
    [The information referred to follows:]<greek-l>H.R. 
2189 deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Smith. The Chair moves that H.R. 2189, the Walter 
Patterson and Werner Foerster Justice and Extradition Act, be 
adopted as introduced. All those in favor say aye. Aye. All 
those opposed say no.
    Ms. Bass. No.
    Mr. Smith. The ayes have it, in the opinion of the Chair. 
The item is adopted. Did you want to record a vote?
    Ms. Bass. Yes.
    Mr. Smith. Ms. Bass requests to record a vote.
    Ms. Bass. Thank you. Thank you, Mr. Chair, and thank you 
for holding this markup.
    In the unusual situation, with all due respect, I did want 
to verbalize my opposition to H.R. 2189 and specifically my 
concern is is that this legislation could undermine what I 
believe has been considerable progress regarding the bilateral 
relationship between the U.S. and Cuba since the normalization 
of relations was announced by President Barack Obama on 
December 17, 2014.
    The United States and Cuba are currently conducting a full 
spectrum of bilateral negotiations with which to further 
establish working relations between the two countries.
    With the resumption of full diplomatic ties following the 
reopening of the respective Embassies in Washington and Havana, 
we have seen a number of announcements from the administration 
and travel to Cuba by U.S. Government officials.
    The State Department has emphasized and reiterated the 
historical significance of this progress following the more 
than 50 years during which there was no official communication 
between the U.S. and Cuba.
    The State Department has also emphasized the critical 
importance of these bilateral negotiations in terms of an 
ongoing dialogue crucial to furthering cooperation between 
Washington and Havana on a range of issues such as 
extradition--critical to both capitals.
    The issue of extradition is indeed important to both 
Washington and Havana. Regarding the latter, the Cuban 
Government continues to question the acquittal in the U.S. of 
Luis Posada Carriles for the 1976 suitcase bombing of Cubana 
Airlines.
    For the U.S., the issue of U.S. fugitives living in Cuba 
remains a key issue, which is why it is part of the ongoing 
dialogue.
    To date, the U.S. has held two law enforcement dialogues 
with Cuba in November 2015 and in May 2016 and a third round is 
currently being scheduled.
    The dialogues have included a discussion on a wide range of 
law enforcement cooperation including the issue of U.S. 
fugitives from justice living in Cuba.
    As such, it appears that H.R. 2189 could circumvent this 
newly established process of negotiations agreed on by the U.S. 
and Cuba and in doing so creates a dangerous precedent that not 
only could potentially undermine the bilateral relationship but 
also challenges the administration's new dialogue with Cuba's 
Government and its citizens.
    Further, H.R. 2189 may also serve to raise questions on the 
part of the Cuban Government with regard to the real intent of 
the U.S. administration's ongoing bilateral negotiations and my 
concern is that it could contribute to lessening cooperation 
between our two countries.
    With that, I thank you, Mr. Chair, for allowing me to state 
my opinion and for your leadership on this issue.
    Mr. Smith. Would you like a recorded vote?
    Ms. Bass. I would like a recorded vote.
    Mr. Smith. The clerk will call the roll.
    Mr. Kearney. Ms. Bass.
    Ms. Bass. No.
    Mr. Kearney. Mr. DesJarlais.
    Mr. DesJarlais. Yes.
    Mr. Kearney. Mr. Donovan.
    Mr. Donovan. Yes.
    Mr. Kearney. Mr. Meadows.
    Mr. Meadows. Yes.
    Mr. Kearney. Mr. Smith.
    Mr. Smith. Yes.
    Mr. Kearney. The recorded vote is four yeas, one nay.
    Mr. Smith. The ayes have it and the bill is agreed to.
    I'd now like to move H.R. 3833, to require a regional 
strategy to address the threat by Boko Haram, be adopted as 
introduced. All those in favor, say aye. Aye. All those opposed 
say no. The ayes have it. In the opinion of the Chair, the item 
is adopted.
    Without objection, the measures are reported favorably to 
the full committee. The staff is directed to make technical and 
conforming changes.
    I'd note that we have completed our formal consideration, 
again, out of deference to our members' schedules.
    But anyone who would like to stay for any comments on the 
two measures just passed please stick around and I would 
recognize myself and the ranking member for those purposes and 
anyone else who would like to speak on the measures just 
adopted.
    Let me speak first on H.R. 2189. In 1963, Walter Patterson, 
a decorated World War II veteran and Bronze Star recipient, was 
shot to death and savagely beaten during a robbery committed by 
George Wright.
    Mr. Wright was subsequently convicted of the murder and 
sentenced to 15 to 30 years but in 1970 escaped from Leesburg 
State Prison, now renamed Bayside State Prison, located in New 
Jersey.
    For 41 years George Wright's whereabouts were unknown 
though he was also sought for hijacking a passenger jet during 
this period. He hijacked it to Algiers and he built a life 
based on lies and on deception.
    When George Wright was located in Portugal in 2010, the 
Patterson family naturally thought that as a convicted felon 
and prison escapee he would be speedily returned to the United 
States to finish serving his sentence.
    Portugal, after all, is a friend of the U.S., committed to 
the rule of law, and has a longstanding extradition agreement 
with the United States.
    Shockingly, a Portuguese court rejected the U.S. 
extradition request in 2011 and efforts to reverse that 
decision by the U.S. Government ceased in 2012.
    The Patterson family, so deeply wounded by the murder of 
their beloved family member and then by the murderer's escape, 
have had their wounds reopened by the Portugese Government's 
refusal to extradite George Wright.
    I point out that I chaired, a few years back, a hearing 
where we heard from members of the family who spoke very 
eloquently and very much in pain about the loss of their 
husband, father and, others, their friend.
    And the now retired FBI agent who tracked him down also 
spoke and, again, made a very, very strong representation as to 
how important it was that he be brought back to the United 
States to complete his sentence.
    There is no closure whatsoever of that terrible, terrible 
murder. Not that there ever is fully for the family and the 
surviving friends, and especially family, but to know that he 
is living in Portugal free and clear is unconscionable.
    This failure of U.S. international extradition policy is 
not isolated. In 1973, Werner Foerster, a New Jersey state 
trooper, was murdered by Joanne Chesimard during a routine 
traffic stop.
    I know the exact spot. It's on the New Jersey Turnpike 
right near the New Brunswick exit. I have been to it. I've 
actually gone right where the murder took place.
    In 1977, Ms. Chesimard was convicted of murder and 
sentenced to life in prison. She escaped in 1979 and fled to 
Cuba where she remains to this day an honored guest of the 
Cuban Government.
    Many other fugitives are suspected of taking refuge in Cuba 
including infamous criminals Victor Manuel Gerena, wanted for 
armed robbery; Charles Hill, wanted for air piracy, kidnapping, 
and murder; William Morales, a prison escapee previously 
convicted of weapons charges; Cheri Dalton, wanted for a string 
of robberies; and Frank Terpil, a former CIA employee convicted 
in absentia on arms trafficking charges.
    With or without an extradition treaty, to both allies of 
the United States and unfriendly governments, there are too 
many cases around the world where efforts to extradite 
convicted criminals have simply stalled, leaving surviving 
families without closure and our efforts to seek justice 
remains in limbo.
    Instead of continuing to allow violent criminals to live 
openly abroad, apparently outside of our Government's reach, we 
must strengthen the executive branch's ability to take action 
to resolve failed extraditions.
    In response to this problem, this bill requires the 
executive branch to provide Congress with an annual study on 
the various aspects of U.S. extradition policy such that 
Congress can take action to address outstanding issues in the 
extradition system.
    It's broken. We need to fix it. Currently, the executive 
branch's management of the extradition system is largely opaque 
to congressional oversight and, hence, resistant to reform.
    The bill requires the executive branch to provide Congress 
with an annual report on a number of aspects of--on a number of 
aspects of U.S. international extradition policy so that 
Congress can take appropriate action to address these 
outstanding issues.
    These reports will also assist the executive branch by 
compiling all relevant data in one place and providing an 
overview on the success or lack thereof of international 
extradition efforts.
    These reports will include, 1) the number of fugitives 
residing in other countries for whom the U.S. is seeking 
extradition or rendition and a list of those countries; 2) the 
diplomatic efforts by the U.S. and other efforts to secure the 
return of these fugitives; 3) the average length and time these 
cases have been outstanding; 4) the number of satisfactorily 
resolved cases; 5) factors that have been barriers to case 
resolution; and 6) information on the number of U.S. citizens 
whose extradition has been sought by other countries during the 
past 5 years--a list of those countries seeking extradition and 
the outcomes of those requests.
    The Government of the United States is unable to adequately 
track and secure extradition of fugitives abroad and, as a 
result, enables countless criminals to escape justice.
    This needs to change. The Walter Patterson and Werner 
Foerster Justice and Extradition Act is an important step 
toward strengthening the oversight role of Congress and giving 
the executive branch the tools it needs to successfully 
extradite wanted fugitives.
    The bill has the support of a diverse coalition of advocacy 
organizations including Concerns of Police Survivors, the 
National Association of Police Organizations, the National 
Organization for Victim Assistance, the National Sheriffs 
Association, and the American Bail Coalition.
    I'd like to just say a couple of remarks--and then I'll 
yield to my colleagues--on Boko Haram, the second bill, H.R. 
3833.
    For several years this subcommittee has pursued a more 
effective U.S. policy to address the threat posed by the 
terrorist group Boko Haram.
    We urged the U.S. declaration of Boko Haram as a Foreign 
Terrorist Organization, or an FTO, and called on the 
administration for several years to use its authority under the 
declaration to investigate those providing material assistance 
to the terrorist group.
    On the day that we went to markup on a bill that I had 
introduced to so designate it, I am happy to say, the State 
Department reversed course and announced that yes, Boko Haram 
is an FTO and they would begin tracking and trying to find its 
money supply flow, where they are getting weapons, and the 
like.
    We have held numerous hearings in this subcommittee on 
various aspects of Boko Haram and I have made two trips within 
the last 2 years including to Jos, where many of the churches 
were firebombed by Boko Haram.
    I met with Archbishop Kaigama, an unbelievable church 
cleric, who had nothing but compassion, even for those doing 
the killing. But he wanted justice.
    And I was amazed that when I met with the imam and his top 
leadership in the Muslim community in Jos, the mutual 
admiration of the archbishop and the Muslim leadership there 
was extraordinary.
    There was no distance between them on trying to stop the 
nefarious ways and the killing and the maiming and the raping 
of Boko Haram.
    We have found that the impact of Boko Haram in Nigeria is 
complex and that's why I support H.R. 3833. It calls for a 
comprehensive regional strategy to support multilateral 
efforts, support for rescue efforts for all the women and girls 
including the Chibok girls who have been kidnapped.
    I have met with many of those--there weren't many but a 
few--that had escaped in the early days of that. There were 
some Muslims among them. They were predominantly Christian and 
they had--and their parents, obviously, who still have not seen 
their children, continue to this moment to be in great agony.
    Boko Haram is not just a Nigeria issue but poses a threat 
to the entire Lake Chad region including Chad, Niger, and 
Cameroon. That includes not only a direct threat from terrorism 
but the increase in humanitarian needs in the entire region. 
IDPs and refugees are exploding in number.
    We have been involved in discussions regarding a Lake Chad 
Special Envoy. Regional problems require regional solutions 
and, again, a strategy like this, I think, would be 
extraordinarily helpful and I want to thank Ms. Wilson for her 
leadership on this.
    I would like to yield to Ms. Bass for any comments she 
might make and then to my friend, Ms. Wilson.
    Ms. Bass. Well, thank you, Mr. Chairman.
    And as you mentioned in your comments, you have been taking 
up the charge against Boko Haram for as long as I have been on 
this subcommittee and we have had numerous hearings on it.
    And so taking the time to do the markup on this piece of 
legislation, I think, is consistent with the leadership that 
you have had on this issue.
    I want to commend my colleague, Frederica Wilson, because 
everyone out of 435 Members of Congress knows that 
Representative Wilson has been leading the charge to bring back 
the Chibok girls and against Boko Haram more than anyone else 
in the House of Representatives.
    And so I am happy to support H.R. 3833 and, specifically, 
the bill calls for a regional strategy to address the threat 
posed by Boko Haram, and we know that Boko Haram has attested 
to its linkages with the Islamic State and the past and 
currently leadership of Boko Haram views the Lake Chad region 
as the Islamic State's west Africa province. That's a shame.
    It should be noted and commended that our Government's 
support of the 8,000-troop multinational joint task force, 
which is composed of troops from Nigeria, Chad, Niger, 
Cameroon, and Benin, as commendable.
    But much more needs to be done by our Government to develop 
an effective regional strategy to assist the task force in 
defeating Boko Haram and to help the region address the root 
causes as to why you have an organization like Boko Haram exist 
to begin with, and that is addressing the social and economic 
infrastructure that would really help address the conditions 
that lead to groups--terrorist organizations like Boko Haram.
    I was recently in Nigeria in August and I met with the U.S. 
Government as well as Nigerian representatives and I am 
encouraged with the new administration in Nigeria that more is 
being done and I am encouraged that under the leadership of 
President Buhari there seems to be more of an openness to 
cooperating with our military that really didn't exist under 
the last administration.
    So I am hoping that our passage today of H.R. 3833 moves us 
in that direction, and I yield back my time.
    Mr. Smith. I yield to Ms. Wilson.
    Ms. Wilson. Thank you, Chairman Smith. Thank you so very, 
very much, and thank you, Ranking Member Bass. Thank you.
    This is a wonderful day and I am just so pleased to be here 
in this subcommittee hearing when we mark up this very 
important piece of legislation.
    This is something, I think, that tugs at the hearts of all 
of the Members of Congress, regardless of party. We have our 
Independents and Republicans, Democrats joining with us and I 
am so pleased to see H.R. 3833 take this important step forward 
in the legislative process.
    Senator Susan Collins of Maine has successfully passed a 
similar bill and now it is our turn. It is our turn to pass our 
bill.
    Boko Haram entered the global radar 892 days ago when it 
kidnapped nearly 300 Nigerian girls from their dormitory rooms 
in the dead of night. Several of the girls escaped that night. 
Another found her way out of of captivity earlier this year. 
But 218 are still being held captive.
    The good news is that the Nigerian Government is attempting 
to negotiate with Boko Haram for the girls' release, and I need 
to find out from the committee, what is your opinion on this 
whole negotiation piece and how do you see it and has anyone 
had any discussion about how it is moving forward?
    I know Mr. Buhari was here and he met with the President 
and the United Nations, and I am really concerned about it and 
I am really concerned because each time I read the newspaper I 
see another step.
    Like, today--2 days ago they said this was the--this would 
be the actual fourth time that the President has tried to 
negotiate a prisoner swap and that the prisoners that he would 
release that he would not just allow them to go back to Boko 
Haram but that they were going to set up training and jobs for 
these young men so that they would be--want to become 
contributing citizens of Nigeria.
    And then we also heard that the girls were scattered and it 
would be impossible for this to happen. So we were just--I was 
just thinking in my mind that maybe the committee had some 
answers for me and I know--I know Ms. Bass has been to Nigeria 
recently as to--is this true about these--is this true?
    Ms. Bass. Well, I was there in August and we didn't hear 
anything about the Nigerian Government doing direct 
negotiations with Boko Haram. What we heard about was their 
stepped-up efforts to eradicate Boko Haram.
    Ms. Wilson. This--uh-huh. This is--this is the last--it 
says the New York Times--Nigeria describes three failed 
negotiations with Boko Haram on the kidnapped girls. Did you 
all see this article?
    Ms. Bass. Yes, but what is not clear from this article is 
that when those negotiations were underway and when they 
failed. So when I was there--it says they opened negotiations 
July 2015 right after Buhari was sworn in.
    But when I was there in August, there were not discussions 
of negotiations. It was eradication. So it might have been 
after the three failed negotiations.
    Ms. Wilson. It was----
    Ms. Bass. It might have been.
    Ms. Wilson. Okay. So as we move forward, we have all these 
IDPs and, hopefully, when we say bring back our girls that we 
are not just talking about the Chibok girls but we are talking 
about all of the people that have been displaced, all of the 
girls and women that have been raped and kidnapped.
    And I am hoping that with the passage of this bill, this 
resolution, that the Congress will be sensitized to what we are 
trying to do and perhaps as we move forward they will press for 
the passage of this on the floor.
    So how do we make that happen, Chairman Smith?
    Mr. Smith. Well, it needs to pass the full committee first 
and this is the first and, I think, important step because the 
text has been very thoroughly vetted and so that's why we are 
doing the markup.
    I would hope as our next markup, although it could be 
waived by Chairman Royce if he so desired and go directly to 
the floor. It does have a number of cosponsors--what, 45 I 
think is the number. Whatever it is, it is good.
    And your question on the kidnapped girls, today the 
Secretary-General and Buhari--on a sidebar meeting at the 
United Nations, Buhari put out a statement that he would 
welcome U.N. intervention, any one of its bodies, to try to 
negotiate with Boko Haram to release all, hopefully, of those 
Chibok girls.
    And I would note it is not just the Chibok girls. As we all 
know, they have abducted many more young women since and killed 
many more young men. They kill the men and abduct the women.
    But I think if the U.N. could put together a negotiating 
team as has been asked by Buhari that might be a means to the 
end.
    There have--even under Goodluck Jonathan there were 
negotiations and they never went anywhere, unfortunately, given 
who Boko Haram actually is. But hope springs eternal that we 
will get some action by the United Nations.
    Ms. Wilson. When we had the opportunity to go to Abuja, we 
met a gentleman who was an activist at the time and now he's a 
Senator in Nigeria, and he was a part of the first approach of 
negotiation under Mr. Goodluck Jonathan.
    And since that time, he has been elected to the Senate and 
they have come to visit with me and they talk of this. So 
that's why I want to really just try to see what's happening on 
the ground because to me I just have to live every day thinking 
until someone just shows me a mass grave that these girls are 
still alive.
    And even if they are scattered, I am good. I just don't 
want them to be killed or miserable or being raped every day 
and every night or sold into prostitution or to be trafficked 
or that is what I want to know and want to find out. So anyone 
who goes to Nigeria I try to question them and try to find out 
what are they hearing on the ground.
    And we have some Nigerians that we talk to on the phone to 
bring back our girls in Nigeria, that segment of them, and they 
are constantly concerned about the killing of Christians in the 
area and that is--I just want to thank you for doing this.
    I want to thank you for supporting this, because this is 
just phenomenal for this world, and I think that a lot of 
people are sleeping on this issue and it has been proven that 
we have ISIS and we have all these others terrorist groups.
    But Boko Haram is the most vicious and they have killed 
more people and displaced more people. So this is phenomenal 
that you're doing this today and I want you to know that I 
believe that we are all on the right side of history.
    Thank you. Thank you so much.
    Mr. Smith. Thank you very much for your very eloquent 
remarks and your leadership. And thank you, Karen Bass. The 
markup is adjourned.
    Ms. Wilson. Thank you.
    [Whereupon, at 2:30 p.m., the subcommittee was adjourned.]

                                 

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
